■'k

6}:i

u

0)q$. ?

/K\

No.
Supreme Court, U.S.
FILED

OCT t S 2320
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)

— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

.Cmuit Y

%\U. £</*etR 6 re*1

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

i ■ (dkl-te(Your Name)

(Address)

^(pb,

(City, ^tate, Zip Code)

"5I7-S/5' -rtf?
(Phone Number)

\/ipJ

QUESTION(S) PRESENTED

1.

Is it lawful for a medical professional to injure a patient and just walk away?

2.

Should a medical professional be held accountable for unreasonable treatment?

3.

What should the remedy be when a patient is abused and injured?

4.

Is there a standard of care instituted for medical professionals?

5.

How can a physical therapy treatment that caused damage be recompensed?

6.

Should physical therapy, and therapist, and equipment violate trust by not returning to patient
in time, or equipment not automatically releasing patient, or the buzzer not sounding because
time is over?

7.

Should physical therapy or equipment or staff defy the safety of the patient by not following the
instructions for the traction machine or the buzzer and timer?

8.

Should the therapist/hospital be held accountable for violating, torturing and abusing a patient
and the trust of that patient by injuring the patient by leaving me on the traction machine
resulting permanent damage to my back/spine, and, without instructions in case buzzer doesn't
work or no one comes in time?

9. Is it lawful for therapist/hospital to violate a patient's trust while being hoisted up and pulled by
a machine?

LIST OF PARTIES

[V] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
APPENDIX B -M
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

/

digits*'

TABLE OF AUTHORITIES CITED
CASES

i»iT5ES

PAGE NUMBER

AND RULES

Determination of qualifications; administration of examinations; standards for competent practice

1C 25-27-1-12
Violation of chapter; injunction

Sec. 12. A person who violates this chapter commits a Class B misdemeanor. In addition the board may,
in the name of the state, through the attorney general, apply in any court to enjoin any person from
practicing physical therapy or acting as a physical therapist's assistant, in violation of 1C 25-27-1-2.

(Formerly: Acts 1957, c.198, s.12; Acts 1971, P.L.379, SEC.10.) As amended by Acts 1978, P.L.2, SEC.2546.

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
,,
[V] reported at
5'
l&

A

to

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was 1? ^ / Z ~JZX)
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
842 IAC 1-5-2 Protection of patients' interests

Authority: 1C 25-27-1-5

Affected: 1C 25-1-9

Sec. 2. Whenever a person's license or certificate has been suspended under 1C 25-1-9 and said person
has not fully complied

with section 3 of this rule and this section or if said licensee or certificate holder has disappeared, died,
or is otherwise unable to

comply with section 3 of this rule and this section, the physical therapy committee shall request the
health professions bureau or the

Indiana Chapter of the American Physical Therapy Association to take such action as may be appropriate
to protect the interests of

that person's patients. (Indiana Board of Physical Therapy; 842 IAC 1-5-2; filed Aug 6,1987, 3:00 p.m.: 10
IR 2736; readopted filed

Nov 9, 2001, 3:16 p.m.: 25 IR 1325; filed Aug 26,2004,10:20 a.m.: 28 IR 206; readopted filed Nov 17,

2010, 9:48 a.m.: 20101215IR-844100405RFA; readopted filedNov 22, 2016,12:11 p.m.: 20161221-IR-844160317RFA)NOTE:
Transferred from the Medical

Licensing Board of Indiana (844 IAC 6-6-4) to the Indiana Board of Physical Therapy (842 IAC 1-5-2) by
P.L.160-2019, SECTION

31, effective July 1,2019. Indiana Administrative Code

STATEMENT OF THE CASE

As a patient, I trusted that all would go well because it had in the past, however, on this day, as I was
attached to a lumbar spine traction machine, the timer went off, as usual, but, the therapist did not
enter the room. As time passed, I felt pain in my lower back and pulling and popping as I was being
pulled and not in a relaxed position, but, off of the table for the treatment. Each day, I was given a
buzzer to press if I needed help. I pressed the buzzer, and no one showed. I noticed quickly that even a
breath caused more ripping and popping and pulling. I was as still as possible. About fifteen minutes
later, the therapist entered, apologizing profusely that he was assisting with another patient, asking me
if I was okay. I told him that I was in pain. When I returned home, I contacted his supervisor to report
this incident. I told her that I was in pain that I had never experienced before. I told her that I pressed
the buzzer and no one showed. She told me that after the timer goes off, the buzzer doesn't work
anymore. I believe this treatment was cruel and unusual, costing me my ability to work and do things
that I normally do and trying to go through the courts to get attention to this matter. I was in treatment
for an injury and received additional injuries.

REASONS FOR GRANTING THE PETITION

The reason for granting the petition is because this is an area of law that may not cover such an incident.
I was a patient, and there were malfunctions in communication about the buzzer and the timer
correlating to each other. I didn't know about that until after the incident. I didn't know that the
therapist would not be available to detach me from the traction machine after the five minutes of
treatment. The unnecessary injury has caused me not to be able to return to work. I have to take
frequent breaks to relieve my back. I was denied surgery on my back, and, I have been very angry
because of all of it. I have had more physical therapy and injections to my back, and all that I can do to
ease the pain. This type of action/behavior should not be allowed. I am left to suffer minute by minute.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

